vf Appellate Case: 20-6102

Document: 010110395595

Date Filed: 08/24/2020

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

August 24, 2020
Christopher M. Wolpert
Clerk of Court

KENNETH R. HEDDLESTEN,
Petitioner - Appellant,
v.

No. 20-6102
(D.C. No. 5:20-CV-00438-R)
(W.D. Okla.)

SCOTT CROW, Director,
Respondent - Appellee.

ORDER DENYING CERTIFICATE OF APPEALABILITY*
Before BRISCOE, BALDOCK, and CARSON, Circuit Judges.
Petitioner, an Oklahoma state prisoner proceeding pro se, filed a habeas petition
pursuant to 28 U.S.C. § 2254 in the Western District of Oklahoma. Therein, he alleged:
(1) he received ineffective assistance of counsel during his state criminal and appellate
proceedings; (2) the judge who presided over his criminal proceedings should have
recused; (3) the prosecuting attorney was biased; and (4) his sentence is in violation of ex
post facto laws. Thereafter, the magistrate judge issued a Report and Recommendation,
which sua sponte recommended that the district court dismiss the habeas petition as
untimely.

After overruling Petitioner’s objections to the magistrate judge’s

This order is not binding precedent except under the doctrines of law of the case res
judicata, and collateral estoppel. It may be cited, however, for its persuasive value
consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

A:

sf ■

4,

Appellate Case: 20-6102

Document: 010110395595

Date Filed: 08/24/2020

Page: 2

recommendation, the district court adopted the recommendation in its entirety, dismissed
Petitioner s habeas application as time-barred, and denied a certificate of appealability
(“COA”). Now, Petitioner seeks a COA from this court.
If the district court dismisses a habeas petition on procedural grounds without
reaching the petitioner’s underlying constitutional claims, a COA will issue when the
pgtitioner shows “jurists of reason would find it debatable whether the petition states a
^ Yalid claim of the denial of a constitutional right” and “jurists of reason would find it
debatable whether the district court was correct in its procedural ruling.” Slack v.
McDaniel, 529 U.S. 473, 478 (2000). The petitioner must satisfy both narts of this
threshold inquiry before we will hear the merits of the appeal. Gibson v. Klinger, 232 F.3d
799, 802 (10th Cir. 2000).
For the reasons explained below, no reasonable jurist could conclude the district
court’s procedural ruling was incorrect. Petitioner’s claims are untimely under 28 U.S.C.

no

§ 2244(d), and he is not entitled to statutory or equitable tolling. Therefore, exercising
jurisdiction under 28 U.S.C. §§ 1291 and 2253(a), we deny Petitioner’s application for a
COA and dismiss this appeal.
* * *

A petitioner must generally seek habeas relief within one year from “the date on
which the judgment became final by the conclusion of direct review or the expiration of
the time for seeking such review[.]” 28 U.S.C. § 2244(d)(1)(A). In this case, Petitioner’s
convictions became “final” on April 11, 2011, when the time for Petitioner to seek
certiorari review with the United States Supreme Court expired. See Locke v. Saffle, 237
2

‘J.
Appellate Case: 20-6102

Document: 010110395595

Date Filed: 08/24/2020

Page: 3

F.3d 1269, 1271 (10th Cir. 2001) (holding that a judgment becomes final when the
Supreme Court denies review, or if no petition for certiorari is filed, after the time for filing
such petition has passed). Thus, absent statutory or equitable tolling, Petitioner must have
filed his habeas petition by April 12, 2012. See 28 U.S.C. § 2244(d)(1)(A). Petitioner did
not file this action until May 2, 2020—more than eight years after the one-year limitations
period expired. Accordingly, Petitioner’s habeas application is untimely unless he is
entitled to statutory or equitable tolling.

.......

Turning first to statutory tolling, the one-year limitations period will be tolled during
the time in which “a properly filed application for State post-conviction or other collateral
review” is pending. 28 U.S.C. § 2244(d)(2). In this case, Petitioner did not file for state
post-conviction review until January 3, 2013—more than six months after the one-year
limitations period expired. Thus, Petitioner is not entitled to statutory tolling.
With respect to equitable tolling, we will toll a petitioner’s otherwise untimely
claims in “rare and exceptional circumstances.” See Burger v. Scott, 317 F.3d 1133, 1141
(10th Cir. 2003) (quoting Gibson, 232 F.3d at 808). A petitioner may be entitled to
equitable tolling if he shows: “(1) that he has been pursuing his rights diligently, and (2)
that some extraordinary circumstance stood in his way” of timely filing.

Pace v.

DiGuglielmo, 544 U.S. 408, 418 (2005).
Here, Petitioner’s sole claim to equitable tolling arises from his counsel’s allegedly
deficient performance.

Petitioner suggests counsel did not properly investigate his f

* constitutional claims nor present them on direct review. Petitioner thus contends the one-

CcvJ‘%^ t-chW.

Covj/V "?
3

i

A
*

Appellate Case: 20-6102

Document: 010110395595

Date Filed: 08/24/2020

Page: 4

year time bar must be excused because no court has reviewed “all constitutional issues
related to [his] conviction[s].”
Petitioner’s claim for equitable tolling is without merit. His argument regarding
counsel’s allegedly dpflr.ipnt performance goes to the merits of his habeas petition—it does
not justify his eight-year delay in filing. See Vue v. Doyvling, 716F. App’x 749, 752 (10th/
' Cir. 2017) (unpublished) (requiring a petitioner to “provide sufficient evidence that his
lawyer’s purported negligence prevented him from filing a habeas application within the f
ipne-year limitations period”); Petitioner does not explain why counsel’s failure to raise
certain issues on appeal impacted his ability to seek § 2254 relief, and from our independent
review, it did not. The district court thus correctly concluded Petitioner is not entitled to
equitable tolling.
* * *

For these reasons, no reasonable jurist could conclude the district court’s procedural
ruling was incorrect. Petitioner’s claims are time-barred, and he is not eligible for statutory
or equitable tolling. We therefore deny Petitioner’s application for a COA and dismiss this
appeal. Petitioner’s motion to proceed in forma pauperis is granted.
Entered for the Court
Bobby R. Baldock
Circuit Judge

4

Case 5:20-cv-00438-R Document 8 Filed 06/19/20 Page 1 of 5

V

THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF OKLAHOMA
KENNETH R. HEDDLESTEN,

)
)
)

Petitioner,

)
)
)
)

v.
SCOTT CROW, Director,

CIV-20-438-R

)
)

Respondent.

ORDER
Petitioner, a state prisoner appearing pro se, filed this action pursuant to 28 U.S.C.
§ 2254, seeking a writ of habeas corpus. Pursuant to 28 U.S.C. § 636(b)(1)(B) and (C) the
matter was referred to United States Magistrate Judge Gary M. Purcell for preliminary
review. On May 29, 2020, Judge Purcell issued a Report and Recommendation wherein he
recommended that the petition be dismissed as untimely. The matter is currently before the
Court on Petitioner s timely objection to the Report and Recommendation, which gives
rise to this Court’s obligation to undertake a de novo review of those portions of the Report
and Recommendation to which Petitioner makes specific objection. Having conducted this
de novo review, the Court finds as follows.
Judge Purcell sets forth the timeline of Petitioner’s state conviction following entry
of a blind plea and his unsuccessful attempt to withdraw his plea, as well as his
unsuccessful appeals and multiple applications for post-conviction relief. Beyond the
proceedings identified in the Report and Recommendation, the records of this Court reveal
that Petitioner previously filed a § 2254 challenge to these same convictions. See

r

i

■

»

Case 5:20-cv-00438-R Documents Filed 06/19/20 Page 2 of 5

Heddlesten v. Miller, CIV-11-430-M (Doc.No. 37). Petitioner requested and the Court
complied with his request to dismiss that petition without prejudice, as discussed further
below. Petitioner now returns to this Court, eight years after expiration of the one-year
statute of limitations period under the AEDPA, and seeks to pursue his § 2254 claims. As
noted, Judge Purcell concluded the petition was untimely, a conclusion that Petitioner does
not challenge. Similarlv>Jie_does not challenge Judge Purcell’s conclusion that he is not
entitled to statutojx-tQilim^Petitioner argues, however that he is entitled to equitable
tolling. The Court disagrees.1

b

^Petitioner asserts that his appellate counsel’s failure to file a petition for certiorari

-o

O

<0 ~>' review or to inform him of the one-year statute of limitations period for filing a § 2254
-^petition entitles him to equitable tolling^As noted in the Report and Recommendation, the
~7

^
<C £ standard for equitable tolling requires a Petitioner to establish that he has been pursuing his
rights diligently and that some extraordinary circumstance stood in his way. Here, the
Court’s earlier § 2254 proceedings belie any attempt by Mr. Heddlesten to rely on equitable
tolling.
Petitioner filed CIV-11-430-M on April 19, 2011, eight days after his conviction
became final. In a Report and Recommendation dated July 15, 2011, Magistrate Judge
Valerie Couch recommended dismissal of the § 2254 petition because it presented both
exhausted and unexhausted claims. Petitioner was advised that he could amend his petition
and omit unexhausted claims, in which case the petition could proceed. (Doc.No. 14). In

1 Judge Purcell also concluded that Petitioner had not alleged factual innocence as a basis for tolling, a finding that
Petitioner does not challenge in his objection.

2

Case 5:20-cv-00438-R Document 8 Filed 06/19/20 Page 3 of 5

c:

the Report and Recommendation Judge Couch recommended the Court not employ the
stay and abeyance procedure sometimes applied to mixed petitions:
Petitioner has not demonstrated a stay is warranted by addressing the
appropriate Rhines [v. Weber, 544 U.S. 269 (2005),] factors. Significantly
the,, one-year limitations period has not expired. See 28 U.S.C. §
2244(d)(1)(A). Without conducting any analysis of the limitations issue, the
Court notes the OCCA Summary Opinion was filed on January 20, 2011.
Therefore, the recommended dismissal of the instant period does not come
at a time after the expiration of the limitations period or close to the end of
the one-year period.

Id. at p. 5. A footnote accompanying the text warned Petitioner that the limitations period
was not tolled while the federal habeas petition was pending. Id. at note 1. In response
Petitioner chose to amend his petition, omitting the unexhausted claims.
Thereafter, on April 4, 2012, mere days before the one-year period under § 2244(d)
expired, ^Petitioner sought leave to supplement his petition to add new, unexhausted,
claims. (Case No. CIV-11-430-M, Doc.No. 30). He was again warned about the statute of
11111

'

‘

rif in

-

||

m^iiMii j----------

---------'

.... ........................................ .

limitations issue in a July 23; 2012 Order from Magistrate Judge Bana Roberts denying his
request that the Court excuse exhaustion ofhis unexhausted claims qnrI denying ipaye tq
supplement his claims because doing so would create a “mixed” pptitionA2 Petitioner was
given the opportunity^,clarify whether he sought dismissal without prejudice of the entire

L

action or whether he wished to proceed with his one exhausted claim. (Id. at Doc.No. 36,
p. 3, note 1). Despite these warnings Petitioner concluded that he wished to proceed on all
ofhis claims and sought voluntary dismissal without prejudice. Consistent with his request,

2 By this time the statute of limitations had expired

3

\

j
Y:/\

; t

■

v*i

*

Case 5:20-cv-00438-R Document 8 Filed 06/19/20 Page 4 of 5

-v
the Court dismissed his action on September 7.5. 2012 and Petitioner did not return to
■\

A

'

Court until May 2, 2020.
‘

u

i''1 £

This additional factual background undercuts Petitioner’s, contention that he is
entitled to equitable tolling, given that he twice ignored this Court’s admonitions that the
one-year statute of limitations was running while he was pursuing his initial § 2254.
Furthermore. Petitioner’s arguments related to the alleged ineffectiveness of his counsel
^s<md counsel’s failure to raise certain arguments do not support a finding of equitable tolling,
rather they are arguments in support of the merits of his claims. See Marsh v. Soares, 223
F.3d 1217, 1220 (10th Cir. 2000) (“[Ijgnorance of the law, even for an incarcerated pro se
petitioner, generally does not excuse prompt filing.” (quoting Fisher v. Johnson, 174 F.3d
710, 714 (5th Cir. 1999))); Vue v. Dowling, 716 F. App’x 749, 752 (10th Cir. 2017)
(requiring a petitioner “to provide sufficient evidence that his lawyer’s purported
negligence prevented him from filing a habeas application within the one-vear limitations
period”). Petitioner was able to file his initial § 2254 action within days of his conviction
becoming final and was informed in those proceedings of the one-year statute of limitations
period. Counsel’s alleged failure to file a petition for certiorari review does not implicate
Petitioner’s ability to seek § 2254 relief. Similarly, counsel’s failure to raise certain issues
in the District Court of Caddo County doe&J3£>t implicate Petitioner’s ability to timely seek
§ 2254 relief. As such, the Court concludes Petitioner is not entitled to equitable tolling_)
In a habeas proceeding, when the Court issues a final ruling that is adverse to the
petitioner, it must consider whether to issue or deny a certificate of appealability. 28 U.S.C.
§ 2253(c); Rule 11(a), Rules Governing Section 2254 Cases in the United States District
4

Case 5:20-cv-00438-R Documents Filed 06/19/20 Page 5 of 5

. \

Courts. When the adverse ruling rests on a procedural ground, the petitioner must show
that reasonable jurists could debate (1) whether the petition asserted a viable constitutional
claim and (2) whether the district court was correct in its procedural ruling. Slack v.
McDaniel, 529 U.S. 473, 484 (2000). The Court finds reasonable jurists would not debate

n

the Court's determinations (1) that the habeas petition is time-barred under § 2244(d)( 1 )(A)
and (2) Petitioner is not entitled to tolling of the statute of limitations period. The Court
therefore declines to issue a certificate of appealability.
For the reasons set forth above, the Court hereby ADOPTS Magistrate Judge
Purcell’s conclusion that the Petition is untimely, and Petitioner is not entitled to tolling of
the statute of limitations period, and therefore the Petition is hereby DISMISSED.
IT IS SO ORDERED this 19th day of June 2020.

DAVID L. RUSSELL
UNITED STATES DISTRICT JUDGE

»\ .

)

.

\
i

\

*

v .
;1

i

'\rc .

5

j V\t } Wj \

>-

■

o \ , -

i

./

;v

Case 5:20-cv-00438-R Document 9 Filed 06/19/20 Page 1 of 1

1
■J

THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF OKLAHOMA
KENNETH R. HEDDLESTEN,
Petitioner,
v.

SCOTT CROW, Director,
Respondent.

)
)
)
)
)
)
)
)

CIV-20-438-R

)

JUDGMENT
Petition filed herein is DISMISSED AS UNTIMELY.
ENTERED this 19th day of June 2020.

DAVID L. RUSSELL
UNITED STATES DISTRICT JUDGE

Case 5:20-cv-00438-R Document 6 Filed 05/29/20 Page 1 of 9

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF OKLAHOMA
KENNETH R. HEDDLESTEN,
)

Petitioner,

)
)

)
v.

No. CIV-20-438-R

)
)

SCOTT CROW, Director,

)
)

Respondent.

)

REPORT AND RECOMMENDATION
Petitioner, a state prisoner appearing pro se, has filed this Petition for a Writ
of Habeas Corpus pursuant to 28 U.S.C. § 2254. Petitioner is challenging his
convictions on two counts of child sexual abuse. District Court of Caddo County,
Case No. CF-2009-51. The matter has been referred to the undersigned Magistrate
Judge for initial proceedings consistent with 28 U.S.C. § 636(b)(1)(B), and the
undersigned has undertaken a preliminary review of the sufficiency of the Petition
pursuant to Rule 4, Rules Governing Section 2254 Cases in the United States District
Courts. For the following reasons, it is recommended the Petition be dismissed as
untimely.
I. Background Information
On December 2, 2009, Petitioner entered a plea of no contest to the charges
noted above. Doc. No. 1 (“Pet.”) at 1; Oklahoma State Courts Network, District
1

c

Case 5:20-cv-00438-R Document 6 Filed 05/29/20 Page 2 of 9

Court of Caddo County, Case No. CF-2009-51.1 On February 10, 2010, the state
court sentenced Petitioner to 30 years imprisonment on the first charge and 30 years
imprisonment suspended on the second. Id. The court ordered the sentences to run
consecutively. Id.
On February 22, 2010, Petitioner filed an application to withdraw his plea.
Pet. at 3; Oklahoma State Courts Network, District Court of Caddo County, Case
No. CF-2009-51.2 The trial court denied the same on March 10, 2010. Id. Petitioner
appealed the denial to the Oklahoma Court of Criminal Appeals (“OCCA”) and it
affirmed the trial court’s decision on January 20, 2011. Oklahoma State Courts
Network, Oklahoma Court of Criminal Appeals, Case No. C-2010-234.3
Petitioner filed an application for post-conviction relief on January 3, 2013.
Pet. at 3; Oklahoma State Courts Network, District Court of Caddo County, Case
No. CF-2009-51.4 Therein, he argued that his plea was not knowingly, voluntarily,
and intelligently entered, he received ineffective assistance of counsel, the trial judge
should have recused, the prosecuting attorney was biased against him, the trial court

See https://www.oscn.net/dockets/GetCaseInformation.aspx?db=caddo&number=CF-2009-51.
2 See https://www.oscn.net/dockets/GetCaseInformation.aspx?db=caddo&number=CF-2009-51.
3 See https://www.oscn.net/dockets/GetCaseInformation.aspx?db=appellate&number=C-2010234&cmid=l 04098.
4 See https://www.oscn.net/dockets/GetCaselnformation.aspx?db=caddo&number=CF-2009-51,
2

Case 5:20-cv-00438-R Document 6 Filed 05/29/20 Page 3 of 9

lacked jurisdiction, his rights were violated during the initial investigation, and
prosecutors violated both state and federal law. Pet. at 3. The state court denied his
application on August 16, 2013. Id. at 4; Oklahoma State Courts Network, District
Court of Caddo County, Case No. CF-2009-51.5 Petitioner appealed to the OCCA
and it affirmed the denial on

g.r 7^_2.013. Pet, at 4; Oklahoma State Courts

Network, Oklahoma Court of Criminal Appeals, Case No. PC-2013-865.6
Petitioner also filed a second, third, fourth and fifth application for post­
conviction relief and/or application to appeal out of time. Pet. at 4-5; Oklahoma State
Courts Network, District Court of Caddo County, Case No. CF-2009-51.7 The state
court denied each of them. Id. Petitioner appealed the denial of his third application
for post-conviction relief to the OCCA, which affirmed the denial and explained that
each of Petitioner’s grounds for relief were or could have been raised in his previous
applications. Pet. at 4; Oklahoma State Courts Network, Oklahoma Court of
Criminal Appeals, Case No. PC-2019-333.8

5 See https://www.oscn.net/dockets/GetCaseInformation.aspx?db=caddo&number-CF-2009-51 .
6 See https://www.oscn.net/dockets/GetCaseJnformation.aspx?db=appellate&number=PC-2013865&cmid=l 12845.
7 See https://www.oscn.net/dockets/GetCaseInformation.aspx?db=caddo&number=CF-2009-51.
See https://www.oscn.net/dockets/GetCaseInformation.aspx?db=appellate&number=PC-2019333&cmid=l 26230.

3

Case 5:20-cv-00438-R Document 6 Filed 05/29/20 Page 4 of 9

By the current action, Petitioner raises the same or substantially similar
challenges to his convictions that he raised in his first application for post-conviction
relief. Pet. at 3, 6, 8, 10, 13, 15, 17-22. He requests this Court “reverse the Caddo
County District Court’s Judgment and Sentence and remand with instructions
consistent with the rudimentary demands of fundamental fairness.” Id. at 16.
II. Screening Requirement
Under Rule 4 of the Rules Governing Section 2254 Cases, the Court is
required to promptly examine a habeas petition and to summarily dismiss it “[i]f it
plainly appears from the petition and any attached exhibits that the petitioner is not
entitled to relief. . . .” Rule 4, Rules Governing § 2254 Cases. “[B]efore acting on
its own initiative, a court must accord the parties fair notice and an opportunity to
present their positions.” Day v. McDonough, 547 U.S. 198, 210 (2006). Petitioner
has such notice by this Report and Recommendation, and he has an opportunity to
present his position by filing an objection to the Report and Recommendation.
Further, when raising a dispositive issue sua sponte, the district court must “assure
itself that the petitioner is not significantly prejudiced ... and determine whether the
interests of justice would be better served by addressing the merits . . . .” Id.
(quotations omitted); Thomas v. Ulibarri, 214 F. App’x 860, 861 n.l (10th Cir.
2007); Smith v. Dorsey, No. 93-2229, 1994 WL 396069, at *3 (10th Cir. July 29,
1994) (noting no due process concerns with the magistrate judge raising an issue sua
4

Case 5:20-cv-00438-R Document 6 Filed 05/29/20 Page 5 of 9

sponte where the petitioner could “address the matter by objecting” to the report and
recommendation).
III. Timeliness
A. Applicable Limitations Period
Under 28 U.S.C. § 2244(d)(1)(A), a petitioner must seek habeas relief within
one-year and said limitations period generally begins to run from “the date on which
the judgment became final bv the conclusion of direct review or the expiration-ofcthe,
time for seeking such review.” Petitioner was sentenced on February 10, 2010,
following his entry of a no contest plea. See, swpra.^Petitioner timely requested to
withdraw his plea on Monday, February 22,2010. Id. Petitioner’s request was denied
on March 10, 2010. Id. Petitioner timely appealed and the OCCA affirmed the state
court decision on January 10, 2011. Id. Petitioner’s convictions therefore
“final” under 28

.C. § 2214(d)(l)(A).cui

far Petitioner to seek certiorari review, which he did not do, with the United States
Supreme Court expired^ See Locke v. Saffle, 237 F.3d 1269, 1273 (10th Cir. 2001)
(“Under the statute, a petitioner’s conviction is not final and the one-year limitation
period for filing a federal habeas petition does not begin to run until . . . ‘after the
United States Supreme Court has denied review, or, if no petition for certiorari is

9 See Sup. Ct. R. Rule 13(1) (providing that applicant for certiorari has 90 days from date of
judgment to file petition for writ of certiorari); 28 U.S.C. § 2101(d).
5

Case 5:20-cv-00438-R Document 6 Filed 05/29/20 Page 6 of 9

filed, after the time for filing a petition for certiorari with the Supreme Court has
passed.’”) (quoting Rhine v. Boone, 182 F.3d 1153, 1155 (10th Cir. 1999)).
Thus, Petitioner had one year hepinning on April 12, 2011, to file his federal
habeas petition commensurate with 28 U.S.C. § 2244(d)(1)(A). Absent statutory or
equitable tolling, his one-year filing period expired on April 12,2012. Petitioner did
not file this action until May 2, 2020.
B. Statutory Tolling
As noted, Petitioner did not file his first Application for Post-Conviction
Relief until January 3,2013. Under 28 U.S.C. § 2244(d)(2), “The time during which
a properly filed application for State post-conviction or other collateral review with
respect to the pertinent judgment or claim is pending” will generally toll the statute
of limitations applicable to filing a habeas petition, (emphasis provided). Petitioner
did not file his post-conviction application until after his statute of limitations had
already expired. See Clark v. Oklahoma, 468 F.3d 711, 714 (10th Cir. 2006) (“Only
state petitions for post-conviction relief filed within the one year allowed by [the
Antiterrorism and Effective Death Penalty Act] will toll the statute of limitations.”).
Thus, Petitioner is not entitled to statutory tolling. ,
C. Equitable Tolling
28 U.S.C. “§ 2244(d) is not jurisdictional and as a limitation may be subject
to equitable tolling.” Miller v. Marr, 141 F.3d 976, 978 (10th Cir. 1998). “Generally,
6

Case 5:20-cv-00438-R Document 6 Filed 05/29/20 Page 7 of 9

a litigant seeking equitable tolling bears the burden of establishing two elements: (1)
that he has been pursuing his rights diligently, and (2) that some extraordinary
circumstance stood in his way.” Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005).
Generally, equitable tolling is warranted only in situations where the petitioner was
actively misled or is prevented in some extraordinary way from asserting his rights.
Id. at 418-19.
^Petitioner has not presented any grounds indicating that he was misled or
otherwise prevented from asserting his rights'^While Petitioner may argue that_he
has been diligently pursuing his

rights^the undersigned notes that his initial

application for post-conviction relief was not filed until almost one year after the
statute of limitations to file a habeas action had already expired^Moreover, Petitioner

<T>
5
O'

'"-4?
C
rV

d P'-

£
/O O.
a

did not file the current action seeking habeas relief until well over nine years after

CO

the OCCA affirmed his underlying convictions.

^—Q*

Qtr

G

The Supreme Court has also held that “actual innocence, if proved, serves as
S?

a gateway through which a petitioner may pass whether the impediment is a
procedural bar . . . [or] expiration of the statute of limitations.” McQuiggin v.
Perkins, 569 U.S. 383, 386 (2013). However, such tolling of the limitations period
for actual innocence is appropriate only in rare instances in which the petitioner
shows that ‘“in light of the new evidence [presented by the petitioner], no juror,
acting reasonably, would have voted to find him guilty beyond a reasonable doubt.’”
7

C3

Case 5:20-cv-00438-R Document 6 Filed 05/29/20 Page 8 of 9

Id. (quoting Schlup v. Delo, 513 U.S. 298, 329 (1995)).
Here, Petitioner does not rely on any new evidence indicating he was innocent
of the underlying crimes in this matter. [Thus, Petitioner has not alleged any
extraordinary circumstances that warrant the application of equitable tolling
principles to extend the limitations period^Because the Petition is not timely filed,
the Court should decline to review the merits and dismiss the action.

RECOMMENDATION
Based on the foregoing findings, it is recommended the Petition for a Writ of
Habeas Corpus pursuant to 28 U.S.C. § 2254 be dismissed as untimely. Petitioner
is advised of his right to file an objection to this Report and Recommendation with
the Clerk of this Court by

June 18th. 2020, in accordance with 28 U.S.C. § 636

and Fed. R. Civ. P. 72.

The failure to timely object to this Report and

Recommendation would waive appellate review of the recommended ruling. Moore
v. United States, 950 F.2d 656 (10th Cir. 1991); cf Marshall v. Chater, 75 F.3d 1421,
1426 (10th Cir. 1996) (“Issues raised for the first time in objections to the magistrate
judge’s recommendation are deemed waived.”).
This Report and Recommendation disposes of all issues referred to the
undersigned Magistrate Judge in the captioned matter, and any pending motion not
specifically addressed herein is denied.
8

Case 5:20-cv-00438-R Document 6 Filed 05/29/20 Page 9 of 9

ENTERED this

29th day of

May, 2020.

GARY M^URCELL
UNITED STATES MAGISTRATE JUD)

9

